Record Press Inc., 229 West 36th Street, New York, N.Y. 10018 ·
Tel No.: (212) 619-4949 · Fax No. (212) 608-3141
STATE OF NEW YORK,

)

COUNTY OF NEW YORK

)

85753

AFFIDAVIT OF SERVICE

SS:

Edward Gutowski being duly sworn, deposes and says that deponent is not party to the action,
and is over 18 years of age.
That on the 12th day of January 2021 deponent served 3 copies of the within
BRIEF FOR RESPONDENTS
upon the attorneys at the addresses below, and by the following method:

BY FEDEX NEXT BUSINESS DAY
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Joshua A. Klein
California Department of Justice
Office of the Solicitor General
1515 Clay Street
Suite 2000
Oakland, CA 94612-1413
510-879-0756
joshua.klein@doj.ca.gov

I, Edward Gutowski, declare under penalty of perjury under the laws of the United States of
America that the foregoing is true and correct, executed on January 12, 2021, pursuant to
Supreme Court Rule 29.5(c). All parties required to be served, have been served.

Sworn to before me on
January 12, 2021
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366
Qualified in Kings County
Commission Expires November 10, 2023

Notary Public

Case Name: Trump v Sierra Club
Docket/Case No. 20-138

